BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply in Support of Certiorari in 20-601,
Daniel Cameron, Attorney General, on behalf of the
Commonwealth of Kentucky v. EMW Women's Surgical
Center, P.S.C., on behalf of itself, its staff, and its
patients, et al., was sent via Next Day Service to the
U.S. Supreme Court, and via Next Day and e-mail
service to the following parties Ii ted below, thi 19th
day of February, 2021:
Andrew David Beck
Alexa Kolbi-Molinas
Jennifer Dalven
Jennesa Calvo-Friedman
American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2633
abeck@aclu.org
David D. Cole
American Civil Liberties Union Foundation
915 15th Street, NW
Washington, DC 20005
Leah Godesky
O'Melveny & Myers LLP
7 Times Square
Times Square Tower
New York, NY 10036

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

; (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Heather L. Gatnarek
ACLU of Kentucky Foundation
325 W. Main Street, Suite 2210
Louisville, KY 40202
Michelle Henry
Craig Henry PLC
401 W. Main Street, Suite 1900
Louisville, KY 40202

Counsel for Respondents
Barry L. Dunn
Counsel of Record
Deputy Attorney General
Office of the Kentucky Attorney General
700 Capitol Ave., Suite 118
Frankfort, KY 40601
(502) 696-5300
Barry.Dunn@ky.gov

Counsel for Petitioner

Mark Brnovich
Attorney General
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Brunn W. Roysden III
Solicitor General
Drew C. Ensign
Michael S. Catlett
Deputy Solicitors General
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
beau.roysden@azag.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/&6 f:'=?J I ~1 Jc? o/

J v1,z, IJ, !J~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
;:c',ri :::y 14. 2()23

